   United States Department of Agriculture
   Office of Inspector General




Analysis of Texas' Supplemental Nutrition
Assistance Program (SNAP) Eligibility Data




                                             Audit Report 27002-0006-13
                                             March 2012
                         United States Department of Agriculture
                                Office of Inspector General
                                  Washington, D.C. 20250




DATE:          March 21, 2012

AUDIT
NUMBER:        27002-0006-13

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Angela Kline
               Acting Director
               Office of Internal Control
                Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General
                for Audit

SUBJECT:       Analysis of Texas’ Supplemental Nutrition Assistance Program (SNAP)
               Eligibility Data


This report presents the results of the subject review. Your written response to the official
draft is included at the end of this report. Excerpts of your February 27, 2012, response and
the Office of Inspector General’s position are incorporated into the applicable sections of the
report.

Based on your response, we have reached management decision on all of the report’s
recommendations. Please follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer. Also, please note that
Departmental Regulation 1720-1 requires final action to be completed within 1 year of the
date of management decision to preclude being listed in the Department’s annual
Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during
our audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Recommendation Summary....................................................................................2
Background and Objectives ....................................................................................3
Background...............................................................................................................3
Objectives ..................................................................................................................4
Section 1: SNAP Eligibility Oversight Needs Strengthening..............................5
   Finding 1: FNS Should Strengthen its Oversight of HHSC’s Eligibility
   Review ....................................................................................................................5
         Recommendation 1 ........................................................................................8
         Recommendation 2 ........................................................................................8
Scope and Methodology...........................................................................................9
Abbreviations .........................................................................................................11
Exhibit A: Summary of Monetary Results ..........................................................12
Agency’s Response .................................................................................................13
Analysis of Texas’ Supplemental Nutrition Assistance
Program (SNAP) Eligibility Data - 27002-0006-13

Executive Summary

The Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program (SNAP),
formerly known as the Food Stamp Program, provides monthly food assistance and nutrition for
the health and well being of more than 40 million low-income individuals.1 The Office of
Inspector General (OIG) initiated this audit to analyze the Texas SNAP participant database to
identify anomalies that may result in ineligible participants receiving SNAP benefits.

Of the 3,551,581 average monthly recipients in Texas during fiscal year 2010, we found
4,096 (.12 percent) recipients who were deceased or were using a deceased individual’s Social
Security Number (SSN), were receiving duplicate benefits from the State of Texas, were
receiving benefits simultaneously from one of five nearby States, or were listed in the Electronic
Disqualified Recipient System (eDRS).2, 3 This occurred because while Texas’ Health and
Human Services Commission (HHSC) has taken several steps to safeguard against potential
fraud, waste, and abuse, there is some opportunity for improvement. HHSC, which administers
SNAP, does not perform all checks necessary to ensure SNAP benefits go only to those who are
eligible. Specifically, it does not perform some edit checks that would help ensure that the
participant information that is entered is accurate. Finally, though HHSC uses the Public
Assistance Reporting Information System (PARIS) database to check for duplicate enrollment
across States, this system does not include all participants nationwide because FNS does not
require States to participate in PARIS or to check for duplicate enrollment across States.4 FNS
also does not require States to use the eDRS system in all cases to ensure that applicants have not
been previously disqualified from receiving SNAP benefits.

In all, the 4,096 participants whose eligibility should have been researched cause us to question
approximately $523,551 in benefits per month, based on the average monthly amount a recipient
receives in Texas.5 With a 26 percent increase in participation since 2007, SNAP is a rapidly



1
  For fiscal year (FY) 2010 according to FNS’ SNAP: Average Monthly Participation, September 1, 2011.
2
  Nearby States included Alabama, Florida, Louisiana, Mississippi, and Missouri.
3
  FNS maintains eDRS which is a national internet-based application that tracks SNAP participants that have been
found guilty of intentional program violations and have been disqualified from the program.
4
   PARIS is a computer matching process by which the Social Security numbers of public assistance recipients are
matched against various Federal databases and those of participating States to prevent simultaneous participation in
benefit programs among States. PARIS is operated under the auspices of the Administration for Children and
Families, U.S. Department of Health and Human Services. Official PARIS website: http://www.acf.hhs.gov/paris.
5
  Potential improper payments are based upon the average amount a recipient receives in Texas each month
($127.82) for FY 2010 according to FNS’ SNAP: Average Monthly Benefit per Person, September 1, 2011. We
were not able to determine the actual amount because payments are calculated by household, not individual;
therefore, even if one participant is ineligible—such as a deceased participant—it is possible that other members of
the household are eligible to receive benefits at a lower amount. Additionally, because Texas does not keep a record
of participant start dates, it is uncertain how long these individuals had been receiving benefits, and therefore
difficult to determine total payments made to that individual.

                                                                         AUDIT REPORT 27002-0006-13               1
growing program in Texas. If HHSC does not take measures to increase preventative and fraud
detection efforts, it risks making continued payments to individuals who may not be eligible for
SNAP benefits.

Recommendation Summary
FNS needs to require HHSC to regularly perform checks to verify that information in participant
databases is accurate. FNS also needs to require HHSC to review the 4,096 individuals
identified in this report to determine if participants have received improper payments and recover
as appropriate.

Agency Response
FNS is actively engaged in a dialogue with regional offices and with States regarding policies
and technical assistance tools which can strengthen integrity to an even greater extent. FNS is
processing final rules that will codify the requirement that States perform the Social Security
Administration (SSA) death match, the prisoner match, and eDRS matching prior to certification.
FNS expects to publish the final rules in June 2012. FNS also issued a November 15, 2011
policy memo reminding States of this requirement. The State has committed to following up on
the 4,096 individuals identified and estimates completion by October, 31, 2012.

OIG Position
OIG concurs with FNS’ response. We reached management decision on the report’s two
recommendations.




2    AUDIT REPORT 27002-0006-13
Background and Objectives
Background
FNS’ SNAP, formerly known as the Food Stamp Program, provides monthly food assistance and
nutrition for the health and wellbeing of more than 40 million low-income individuals. Texas
had 3,551,581 individuals—or 14 percent of the State’s population—enrolled per month in SNAP
during fiscal year 2010.6, 7 Since 2007, the program has grown by 26 percent. While FNS pays the
full cost of recipient benefits, both FNS and State agencies share the program’s administrative costs.

For enrollment and eligibility procedures, SNAP regulations at the Federal level specify minimum
guidelines, such as maximum income requirements, to be enforced by the State agencies; however,
these regulations do not establish a standardized system of internal controls at the State level. FNS’
policy is to allow State agencies the flexibility to establish control systems that meet the individual
needs of each State. For example, Federal regulations allow State agencies to determine whether or
not they will interview recipients face-to-face or on the telephone prior to granting benefits. In
Texas, HHSC performs interviews both via telephone and in person. Each State is also allowed to
decide how it would like to organize the administration of SNAP. Each State agency develops and
maintains its own eligibility system—including software and databases—which varies from State to
State.

In Texas, applicants submit documents to prove citizenship, residency, income, and expenses. To
continue in the program, participants are typically required to recertify every 6 months. 8 If the
household has special circumstances, such as all members receiving Supplemental Security
Income (SSI), the household may be granted a longer certification period between one and three
years. Participants in SNAP apply and are approved or denied by HHSC based on pre-established
eligibility requirements.

State agencies also have the primary responsibility for monitoring recipients’ compliance with
program requirements and for detecting and investigating cases of alleged intentional program
violations.9 Once applicants have submitted information, HHSC performs several automated data
checks to validate selected information submitted, including SSNs. State agencies are required to
establish a system to ensure that certain prisoners do not receive benefits.10 State agencies must also
check recipient data against a national SSA database, which can be accessed using SSA’s State
Verification Exchange System (SVES), to ensure that deceased recipients do not receive



6
  Texas’ monthly SNAP participation numbers are based on an average for FY 2010 according to FNS’ SNAP:
Average Monthly Participation, dated September 1, 2011.
7
  Population information is based on the 2010 United States Census, dated June 3, 2011.
8
  HHSC, Texas Works Handbook, Part A, Determining Eligibility, Section 2324, Length of Certification.
9
  7 Code of Federal Regulations (CFR) 273.16 (c), dated January 1, 2011, defines an intentional program violation
as any act violating the Food Stamp Act, the Food Stamp Program regulations, or any State statute for the purpose of
using, presenting, transferring, acquiring, receiving, possessing, or trafficking SNAP benefits. The definition
includes any act that constitutes making a false or misleading statement or concealing or withholding facts.
10
   Public Law (PL) 105-33, Balanced Budget Act of 1997, Section 1003 (a) (1), dated August. 5, 1997; and PL 114-
246, the Food and Nutrition Act of 2008, Section 11(q), dated October 1, 2008.

                                                                         AUDIT REPORT 27002-0006-13               3
benefits.11, 12 In addition, HHSC, like most other agencies who administer SNAP, utilizes
additional national and State database systems to verify income and employment information
provided by applicants.

Objectives

OIG initiated this audit to analyze the Texas SNAP participant database to identify anomalies
that may result in ineligible participants receiving SNAP benefits




11
   Provided at no cost to State agencies, SVES matches data against several national databases to check for death
and SSN verification for every submitted individual. SSA’s Death Master File also checks SSNs nationwide to
search for deceased individuals.
12
   PL 105-379, An Act to Amend the Food Stamp Act of 1977, Section 1(a), dated November 12, 1998.

4     AUDIT REPORT 27002-0006-13
Section 1: SNAP Eligibility Oversight Needs Strengthening

Finding 1: FNS Should Strengthen its Oversight of HHSC’s Eligibility
Review
We found that of the 3,551,581 average monthly participants in Texas as of December 2010,
4,096 (.12 percent) participants were deceased, were using a deceased individual’s SSN, were
receiving duplicate benefits in Texas, were receiving benefits simultaneously from one of five
nearby States, or were listed in eDRS as previously disqualified from receiving SNAP benefits.
While HHSC has taken several steps to safeguard against potential fraud, waste, and abuse, there
is some opportunity for improvement. Specifically, HHSC does not perform some edit checks
that would ensure that participant information is entered accurately. Additionally, although
HHSC uses the PARIS database to check for duplicate enrollment across States, this system does
not include all participants nationwide because FNS does not require States to participate in
PARIS or check for duplicate enrollment across States. FNS also does not require States to use
the eDRS system in all cases to ensure that applicants have not been previously disqualified from
receiving SNAP benefits. Not performing these checks increases the risk of improper payments.
In all, the 4,096 participants whose questionable eligibility should have been reviewed continued
to receive approximately $523,551 in benefits each month.

To verify that benefits are not issued to individuals who are deceased, HHSC, like all agencies
who administer SNAP, is required to compare the information in its SNAP participant database
with national SSA death information. HHSC uses SSA databases as well as the data from Texas
Bureau of Vital Statistics (BVS) to identify deceased participants. HHSC runs this match on a
monthly basis. However, when we used SSA’s Death Master File (DMF) to perform this check
ourselves, we found that 2,405 current Texas SNAP participants’ SSNs were listed in SSA’s
DMF.13 HHSC reviewed all 2,405 cases and confirmed that 906 participants were deceased. Of
the 906 deceased participants, 177 were enrolled in a one-person household and benefits on the
account were used after their date of death. The remaining cases were generally identified due to
input errors of the SSN in the eligibility system. Officials stated that participants listed on SSA’s
DMF continued to receive benefits after they were identified because HHSC has an agreement
with SSA that HHSC cannot take adverse action on households based solely on death
information obtained from SSA.14 In contrast, HHSC can take immediate action on death
information obtained from BVS.15 This system allows HHSC to remove individuals who have
died in the State, but cannot remove individuals listed on the national SSA DMF who may have
died in another State, unless they have a secondary source to verify a recipient’s death. Officials



13
   The SSA’s DMF is used by leading government, financial, investigative, credit reporting, and medical research
organizations as well as other industries to verify individuals who have died.
14
   Per the agreement under which HHSC obtains the SSA death information, HHSC must verify the information
provided through a secondary source and is not allowed to act solely on death information received from SSA for
terminating public assistance benefits, including SNAP.
15
   According to FNS’ Questions and Answers on the Noncitizen Eligibility and Certification Provisions Final Rule,
dated November 21, 2000, databases such as BVS are not questionable, and are termed “verified upon receipt,”
because the provider is the primary source of the information.

                                                                        AUDIT REPORT 27002-0006-13              5
also stated that delays in researching the results of the death match may result in deceased
participants continuing to receive benefits after they are identified.

We also found individuals using invalid SSNs. SNAP applicants are required to provide an SSN
when applying for benefits. HHSC then validates the SSN with SSA. If the SSN fails
validation, the individual applying for SNAP benefits is directed to resolve the discrepancy with
SSA. If HHSC determines that good cause exists for not having an SSN, HHSC cannot suspend
the individual’s benefits.16 If the individual cannot prove good cause each month then he is
disqualified from the program. We found that 22 participants had SSNs that did not match the
format of the SSA scheme for valid SSNs.17 This occurred because HHSC does not currently
check for input errors caused when personnel enter the SSN into the system, or for invalid SSN
schemes that have been present for more than the first month of participation. HHSC has
determined that none of the 22 individuals have received improper benefits. HHSC is working to
correct these invalid SSNs as soon as possible.

We also found 11 individuals who received SNAP benefits simultaneously under two separate
accounts in Texas. Normally, HHSC performs an edit check to identify and prevent a person
who was already in the system from being entered into the system twice. However, these
anomalies occurred because input errors in key data fields caused the individuals to appear to be
different people. When we notified the agency of the duplicate accounts, they agreed to correct
them. Because this type of error is rare and does not pose a great risk, we accept this response.

HHSC also had multiple instances of simultaneous enrollment with the States of Alabama,
Florida, Louisiana, Mississippi, and Missouri. Each participant should only receive SNAP
benefits from the State where the participant resides. We compared SNAP enrollment between
Texas and these nearby States and found that 1,355 individuals enrolled in the Texas SNAP
program were simultaneously enrolled in one of the five nearby States for at least 3 consecutive
months. In some cases, participation in multiple States occurred because FNS does not have a
nationwide database of all SNAP participants for HHSC to check. While HHSC does utilize
PARIS—an optional, multi-State database that stores social welfare program participant
information—not all States input their SNAP participant information in PARIS. As a result,
PARIS’ information is incomplete. With mandatory SNAP participation in PARIS or a similar
system, HHSC—as well as other State agencies—would have access to a reliable, nationwide
database, which it could then utilize in its fraud detection efforts. In other cases, participation in
multiple States occurred because the PARIS match only occurs on a quarterly basis quarter and
the matches must be researched before any person is removed, which causes timing delays.
Additionally, HHSC does not always receive notification that a participant has moved to another
State and the receiving State may not perform the proper checks in PARIS to notify the State of
Texas.



16
   7 CFR 273.6(d), dated January 1, 2011, states that applicants who cannot provide required proof to apply for an
SSN may receive SNAP benefits for each month they have good cause. Good cause exists when circumstances
beyond the client's control prevent him from securing proof required to obtain an SSN.
17
   Because a participant start date was not provided by HHSC, it was not possible to determine how long the invalid
SSNs existed in the system.

6     AUDIT REPORT 27002-0006-13
Additionally, we found 325 active participants who were previously disqualified from receiving
SNAP benefits. FNS maintains eDRS, which is a national system that tracks SNAP participants
who have been disqualified from the program due to intentional program violations. States are
required by FNS to input individuals who have been disqualified, but they are not required to
check this system before allowing a person into the program. These individuals continued to
receive benefits after disqualification because States are not required to check eDRS prior to
approving benefits. Other errors occurred because of conversion errors between the old and the
new eligibility systems, and some disqualification periods in eDRS were not clear to the staff
members. We recommend that FNS require States to use eDRS to verify that individuals have
not been disqualified from SNAP prior to allowing them into the program.

Finally, we noted that 61,065 households were “categorically eligible” according to a policy that
allows States to align the SNAP income and asset limits with other programs. Although these
households may exceed the SNAP income limit, they are eligible to receive SNAP benefits
because they receive benefits from other Federal programs.18 HHSC reviewed a sample of these
cases and determined no improper payments were made.

For many of the anomalies we identified above, we were unable to determine how long a
participant had been in the program because HHSC could not provide participants’ start dates,
only the start date of their most recent case.19 FNS stated that State agencies are only required to
keep the most recent certification date for each participant. HHSC officials stated that initial
participant start dates were stored, but could not be provided with the extract program. We could
not identify how many SNAP recipients were non-citizens because HHSC was also unable to
provide accurate citizenship information for all SNAP participants. However, according to
Federal regulations, many non-citizens are eligible for SNAP. 20

In all, the 4,096 participants whose eligibility should have been reviewed cause us to question
approximately $523,551 in benefits per month, based on the average amount a recipient receives
in Texas. We have forwarded these participants to HHSC for further research. We acknowledge
that HHSC is in the process of researching and resolving several of these issues and believe that
by utilizing manual input edit checks and a process to check eDRS for disqualifications, HHSC
can improve its fraud detection and prevention. In addition, if FNS mandates that all States



18
   According to 7 CFR 273.2 (j), dated January 1, 2011, the “categorically eligible” program allows otherwise
ineligible households to continue in the SNAP program, although they exceed asset and income limits based on FNS
policy. A household is “categorically eligible” for SNAP if all members receive Supplemental Security Income
(SSI), general assistance (GA), or Temporary Assistance for Needy Families (TANF) assistance or non-cash
benefits or services. “Categorically eligible” households must meet the income and asset limits from the TANF,
GA, or SSI program to be eligible for SNAP.
19
   A recipient can have several cases over time: for example, a SNAP recipient may open a case when they enroll;
they may close their case and unenroll when, for example, they receive employment. If their circumstances change,
they may open a new case and reenroll in the program.
20
   The Food and Nutrition Act of 2008, as amended, limits eligibility for SNAP benefits to U.S citizens and certain
lawfully present non-citizens. Generally, a non-citizen must be a qualified alien (as defined in the Personal
Responsibility and Work Opportunity Reconciliation Act, dated January 3, 1996) in order to be eligible for SNAP.
Non-citizens like tourists and students are generally not eligible. Individuals who are eligible based on their
immigration status must also satisfy other SNAP eligibility requirements such as income and resource limits.

                                                                        AUDIT REPORT 27002-0006-13               7
participate in PARIS or utilize a similar system, the risk of individuals enrolling in two States
simultaneously would be mitigated.

Recommendation 1
Require HHSC to regularly perform checks to ensure information in participant databases is
accurate and complete.

Agency Response
To ensure participant information is accurate and complete, FNS is actively engaged in a
dialogue with regional offices and with States regarding policies and technical assistance tools
which can strengthen integrity to an even greater extent. FNS is processing final rules that will
codify the requirement that States perform the SSA death match, the prisoner match, and eDRS
matching prior to certification. This final rule is expected to be published by June 2012. FNS
also issued a policy memo reminding States of the death and prisoner matching requirement,
which went out to States on November 15, 2011.

OIG Position
OIG concurs with FNS’ response that a policy be issued to codify the States’ requirement to
perform these matches. We reached management decision on this recommendation.

Recommendation 2
Require HHSC to review the 4,096 individuals identified in this report to determine if
participants have received improper payments. Recover improper payments as appropriate.

Agency Response
FNS agrees with this recommendation and estimates completion by October 31, 2012.

OIG Position

OIG concurs with FNS’ response for this recommendation and we have reached management
decision.




8    AUDIT REPORT 27002-0006-13
Scope and Methodology
We analyzed the participants in the Texas SNAP program for the timeframe of January 2010
through December 2010. The State of Texas was selected for review because it had the largest
number of participants receiving SNAP benefits during fiscal year 2010. 21 We had also
previously looked at several nearby States. We selected the timeframe of January 2010 through
December 2010 because, at the time of our audit, it was the latest information available.

We obtained SSA’s Death Master File and extracts of key SNAP participant data from HHSC
officials.22 We also obtained SNAP participant data from the five nearby States of Alabama,
Florida, Louisiana, Mississippi, and Missouri. We further obtained the December 2010 eDRS
extract of disqualified SNAP individuals from FNS and compared it to the December 2010
SNAP participant data. We analyzed these data using Audit Command Language. Our tests were
developed to identify anomalies that may result in ineligible participants receiving SNAP
program benefits and to determine whether FNS provided adequate program guidance and
oversight. Our tests determined whether:

     ·   Active SNAP participants were listed in the Death Master File,
     ·   Invalid SSNs were entered in the system,
     ·   Duplicate payments were received,
     ·   Recipients were receiving benefits simultaneously from one of five nearby States, and
     ·   Active SNAP participants were listed in eDRS.

As appropriate, the anomalies identified were sent to HHSC officials. For many of the
anomalies, HHSC was only able to research and verify a sample of the results due to resource
constraints.

We reviewed public laws, FNS regulations, policies, and other controls governing the
administration of SNAP to ensure HHSC complied with Federal guidelines. We evaluated
reports that resulted from reviews relative to SNAP, the Federal Manager’s Financial Integrity
Report for fiscal year 2011, and Government Accountability Office reports. We interviewed
Texas State officials and obtained an extract of their eligibility databases.

We conducted our audit work with HHSC in Austin, Texas, and FNS’ national office in
Alexandria, Virginia. We also coordinated our audit with FNS’ Southwest regional office in
Dallas, Texas. Our audit period was June 2010 through February 2011.

We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit


21
   Monthly participation figures are based on an average for FY 2010 according to FNS’ SNAP: Average Monthly
Participation, dated September 1, 2011.
22
   To allow for lag time between an individual’s date of death and the date benefits are terminated or adjusted,
participants whose deaths occurred after October 30, 2010 were not included in the results.

                                                                        AUDIT REPORT 27002-0006-13                 9
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




10     AUDIT REPORT 27002-0006-13
Abbreviations
BVS............................. Bureau of Vital Statistics
CFR ............................. Code of Federal Regulations
DMF............................ Death Master File
eDRS ........................... Electronic Disqualified Recipient System
FNS ............................. Food and Nutrition Service
FY ............................... Fiscal Year
GA............................... General Assistance
HHSC.......................... Health and Human Services Commission
OIG ............................. Office of Inspector General
PARIS ......................... Public Assistance Reporting Information System
PL................................ Public Law
SNAP .......................... Supplemental Nutrition Assistance Program
SSA ............................. Social Security Administration
SSI............................... Supplemental Security Income
SSN ............................. Social Security Number
SVES........................... State Verification Exchange System
TNAF .......................... Temporary Assistance for Needy Families
USDA.......................... Department of Agriculture




                                                                AUDIT REPORT 27002-0006-13   11
Exhibit A: Summary of Monetary Results

FINDING       RECOMMENDATION
                                       DESCRIPTION          AMOUNT             CATEGORY
NUMBER            NUMBER

                                         2,405 Clients
                                       identified on the    $307,407         Questioned Cost,
     1                  2
                                         Death Master       per month     Recovery Recommended
                                              File
                                        1,355 Clients
                                       participating in     $173,196         Questioned Cost,
     1                  2             SNAP in TX and
                                                            per month     Recovery Recommended
                                       either AL, FL,
                                      LA, MS, or MO
                                          11 Clients
                                          receiving          $1,406          Questioned Cost,
     1                  2
                                          duplicate         per month     Recovery Recommended
                                        benefits in TX

                                          325 Clients
                                                             $41,542         Questioned Cost,
     1                  2              listed in TX and
                                                            per month     Recovery Recommended
                                         eDRS system


                                                           $523,551 per
 TOTAL
                                                              month



The table above represents the $523,551 in questioned costs per month, recovery recommended.




12       AUDIT REPORT 27002-0006-13
Agency’s Response




                 USDA’S
      FOOD AND NUTRITION SERVICE’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27002-0006-13   13
United States
Department of    DATE:          February 27, 2012
Agriculture
                 AUDIT
                 NUMBER:        27002-0006-13
Food and
Nutrition
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive
Room 712
                 FROM:          Audrey Rowe /S/
                                Administrator
Alexandria, VA
22302-1500
                                Food and Nutrition Service

                 SUBJECT:      Analysis of Texas’ Supplemental Nutrition Assistance Program
                               (SNAP) Eligibility Data

                 This letter responds to the official draft report for audit report number 27002-0006-13,
                 Analysis of Texas’ Supplemental Nutrition Assistance Program (SNAP) Eligibility
                 Data. Specifically, the Food and Nutrition Service (FNS) is responding to the two
                 recommendations in the report.

                 OIG Recommendation 1:

                 Ensure that HHSC regularly performs checks to ensure information in participant
                 databases is accurate and complete.

                 Food and Nutrition Service Response:

                 FNS takes program integrity very seriously. Any errors are of concern; however, FNS
                 notes that the findings in this report constitute about 0.1 percent of the Texas caseload
                 suggesting that while current processes can always be improved, they are, in fact,
                 working. Pursuant to the critical importance of integrity to ensure that people in need
                 receive nutrition assistance to which they are entitled, FNS is actively engaged in a
                 dialogue with our regional offices and with States regarding policies and technical
                 assistance tools which can strengthen integrity to an even greater extent.

                 FNS already has a number of activities in place that will address the situations found in
                 this report. FNS is currently in the process of awarding a grant through the Office of
                 Management and Budget (OMB) Partnership Fund for Program Integrity. This grant
                 will fund development of a pilot clearinghouse database with information from five
                 States in the Southeast and Southwest for detecting duplicate participation in SNAP
                 and disaster SNAP (D-SNAP) across State boundaries. FNS supports the audit States
                 Alabama, Mississippi, Florida and Louisiana’s participation in the coalition of States
                 that will use grant funds from the OMB Partnership Project to develop the interstate
                 clearinghouse.
                                                                                P age |2




Per SNAP regulations at 7 CFR 272.4(e)(1), each State agency shall establish a system
to assure that no individual participates more than once in a month, in more than one
jurisdiction, or in more than one household within the State. FNS further encourages
States to have processes in place to check data with neighboring States to prevent
duplicate participation across State lines. The Public Assistance Reporting Information
System (PARIS) is available to States as an additional tool to identify interstate
duplicate participation but it is not mandatory for States to use PARIS. Some States
have expressed concerns that the information in PARIS is not timely.

FNS requires States to input individuals who have been disqualified from SNAP into
the Electronic Disqualified Recipient System (eDRS). States are currently required to
check eDRS if they suspect the client is in a disqualified status and to determine the
penalty length for a person who was found guilty of an intentional Program violation.
However, FNS has final rules in process which will require all applicants to be checked
against the eDRS system prior to certification. This final rule is currently in clearance
and is expected to be published by June 2012.

We would also like to convey that the Texas Health and Human Services Commission
(HHSC) takes issue with OIG’s statement in the recommendation statement that “FNS
should provide guidance to ensure that HHSC is using a comprehensive national SSA
database to perform its death matches and SSN verification.” HHSC maintains that this
statement is not accurate and should be removed from the report because this statement
suggests that HHSC is not using a comprehensive national SSA database to perform its
death matches and SSN verification. In fact, OIG’s report specifically acknowledges
that, SNAP applicants are required to provide a SSN when applying for benefits and
that, “HHSC then validates the SSN with SSA”. Further, OIG also states that “HHSC
uses SSA databases as well as the Texas Bureau of Vital Statistics (BVS) to identify
deceased participants.” HHSC runs the SSA master death file match on a monthly
basis; it matches against Texas BVS records weekly. Once verification is completed,
HHSC terminates or adjusts the applicable SNAP benefits and takes action to recover
any overpayments. Therefore, HHSC maintains that the report findings conflict with
the assertion that HHSC is not using a comprehensive database.

HHSC also explained that the nature of the death match process inherently results in a
lag time between an individual’s date of death and the date benefits are terminated or
adjusted. This lag is the result of a sequence of actions that begins after the date of
death and must all be completed before benefits are terminated.

Estimated Completion Date: February 29, 2012

OIG Recommendation 2:

Require HHSC to review the 4,097 individuals identified in this report and determine if
participants have received improper payments. Recover improper payments as
appropriate.




                           AN EQUAL OPPORTUNITY EMPLOYER
                                                                               P age |3




Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS would like to convey that HHSC takes
issue with the statement that OIG found 12 individuals who received SNAP benefits
simultaneously under two separate accounts in Texas. HHSC reviewed the data and
determined that five individuals received SNAP benefits simultaneously under two
separate accounts, for a total of ten on the auditor’s list. These five individuals
received a total of $751 in improper payments and HHSC is taking action to recover
the overpayments for these individuals. The two remaining findings of this type on the
auditors list were duplicates of the same record, and appear to have been included on
the list in error.

Further, HHSC states that with regard to the 22 instances where OIG found the SSN
was invalid, all have been resolved. Each of the 22 individuals now has a valid SSN,
and no improper benefits were issued. FNS would also like to reiterate with OIG that a
household is categorically eligible for SNAP if it receives Supplemental Security
Income (SSI), general assistance (GA), Temporary Assistance for Needy Families
(TANF) assistance or non-cash benefits or services. Categorically eligible households
must meet the income and asset limits from the TANF, GA, or SSI program to be
eligible for SNAP. While categorical eligibility makes a household eligible for SNAP,
the household must still meet all other SNAP eligibility requirements and have a net
income that qualifies it for a benefit. DHHS has confirmed that households identified
in the audit review as categorically eligible were not receiving improper payments.

Finally, FNS asserts that the report reference to non-citizens remains confusing and
misleading. The report acknowledges that certain non-citizens may be eligible for
SNAP. Moreover, SNAP applicants who are non-citizens must verify their legal status.
This status is confirmed in Quality Control reviews. Program regulations do not
require separate reporting on non-citizen participants. The fact that there was no way to
identify the number of non US citizens receiving benefits in Texas’s SNAP database is
neither an area of concern nor anomaly.

Estimated Completion Date: October 31, 2012




                           AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer (1)
 Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
